                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 Case Number: 1-08-04-0028                                                                    Page 1 of 1



          This investigation was initiated based, on a proactive review of awards for which no final project
          reports have been submitted and for which funds have been drawn-down after the expiration
          dates. A review of NSF databases revealed an institution! which had 24 awards for which no
          final project reports have been submitted and for which funds 2 had been drawn-down after the
          expiration dates. An initial review of the general ledgers for the 24 awards revealed charges3
          incurred after the expiration date of the award.

          Subsequent investigation, which included a site visit to the University and a through review of
          source documentation for all of the relevant charges, revealed that all charges to the 24 awards
          were incurred during the award periods. There were no indications of fraud or other wrongdoing.

          Accordingly, this investigation is closed.




        . IUniv~rsity of Michigan @ Ann Arbor
         2 $423,100.02 in post-expiration draw-downs for the 24 awards
         3 $186,278.72 .




NSF OIG Fonn 2 (11102)
